No. 19-331

 

IN THE

Supreme Court of the United States

SEQUOIA CAPITAL OPERATIONS, LLC; TCV V, L.P.,

Petitioners,
v.

JESSICA GINGRAS, ON BEHALF OF HERSELF AND OTHERS
SIMILARLY SITUATED; ANGELA C. GIVEN, ON BEHALF OF
HERSELF AND OTHERS SIMILARLY SITUATED,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,021 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 26, 2019.

Colin Casey Hog:
Wilson-Epes Printing Co., Inc.
